          Office of Inspector General
Corporation for National and Community Service

                 Semiannual Report to the Congress
                                   for the period
                 April 1, 2001 – September 30, 2001
                                  Fiscal Year 2001
                               Semiannual Report No. 2




As required by the Inspector General Act of 1978, as amended, this report describes
our activities and accomplishments for the second half of the fiscal year. Section 5 of
the Act requires that the Corporation’s Chief Executive Officer submit this report to the
Congress and the Corporation’s Board of Directors within 30 days of its receipt.
                                     TABLE OF CONTENTS


EXECUTIVE SUMMARY ................................................................................................................i

IG ACT REPORTING REQUIREMENTS ......................................................................................iv

AUDIT SECTION

    Financial Management .................................................................................................................1
    GPRA Performance Reporting ......................................................................................................2
    Grant Management and Oversight.................................................................................................2
    Information Systems ................................................................................................................... 5
    Procurement Management ........................................................................................................... 6
    Audit Resolution ..........................................................................................................................6


INVESTIGATIONS SECTION ...................................................................................................... 12

REVIEW OF LEGISLATION AND REGULATIONS .................................................................... 18

TABLES

    Table I                 Inspector General Reports with Questioned Costs ............................................ 20
    Table II                Inspector General Reports with Recommendations
                            That Funds Be Put To Better Use ..................................................................... 21
    Table III               Summary of Audits with Overdue Management Decisions .............................. 22
    Table IV                Reports Described in Prior Semiannual Reports
                            Without Final Action ....................................................................................... 24
    Table V                 Status of Selected Key Open Recommendations on Corporation
                            Management Issues .......................................................................................... 28


FISCAL YEAR 2001 PERFORMANCE INFORMATION

   Mission Statement ...................................................................................................................... 33
   Strategic Goals ........................................................................................................................... 33
   Audit Performance Information .................................................................................................. 34
   Investigations Performance Information ...................................................................................... 36
   Summary of OIG Obligations and Expenditures .......................................................................... 38
                          EXECUTIVE SUMMARY
AUDIT SECTION
                                                     Grant Management and Oversight
During this semiannual reporting period, OIG         OIG conducted an audit of the Corporation’s
issued fifteen audit reports, for a total of         grant application review process and
twenty-eight during the fiscal year.                 concluded that the fiscal year 2000 process
Summaries of all audit reports issued from           was conducted in a reasonably equitable
April 1 to September 30, 2001 are on pages 10        manner. However, the audit report included
and 11.                                              several recommendations for improvements
                                                     including reducing the paperwork burden,
Financial Management                                 improving grant files maintenance, and
                                                     allowing more time for peer review of grant
The audit of the Corporation’s fiscal year 2000      applications. The report also noted that the
financial statements resulted in an unqualified      statutory use of the term, “sustainability,” is
opinion on the Statement of Financial Position       somewhat unclear and recommended that
as of September 30, 2000 and the related             Congress consider whether it should clarify its
Statements of Operations and Changes in Net          intent in establishing this requirement, and its
Position and Cash Flows for the year then            relationship to the Congressional goal of
ended. The management letter, issued July 13,        reducing grantees’ reliance on federal funding
2001, based on this audit included 33                as set forth in section 130(b)(3) of the
recommendations in eight subject areas               National and Community Service Act of 1990,
(page 1).                                            as amended, and codified in Title 42, US
                                                     Code, section 12582(b)(3). (page 3).
In a study of the Corporation’s current
financial reporting policies, OIG concluded          OIG issued four state commission (Maryland,
that the Corporation is in substance a federal       Connecticut, Massachusetts, and Colorado)
agency by virtue of its reliance on                  pre-audit survey reports in its continuing
appropriated funds. Consequently, the study          initiative to gather basic information about,
recommended that the Corporation consider            and assess risk related to, the Corporation’s
adopting the Federal Accounting Standards            grants to state commissions and sub-grantees
Advisory Board reporting model in lieu of the        of the commissions.
private sector standards upon which it has
historically relied (page 1).                        OIG also issued a report summarizing pre-
                                                     audit survey results and findings from the 37
GPRA Performance Reporting                           state commission pre-audit surveys that have
                                                     been completed to date. Approximately 60%
OIG reviewed the Corporation’s internal
                                                     of    the   surveyed     commissions     have
controls for performance statistics and
                                                     implemented systems that provide for
accomplishment reporting for fiscal year 2000.
                                                     adequate fiscal administration of Corporation
The audit identified a lack of policies and
                                                     grant funds.     However, only 19% had
procedures to assure performance statistics
                                                     implemented adequate systems for monitoring
were accurately compiled and reported and a
                                                     and oversight of their subgrantees. The audit
failure to verify data entered for accuracy at its
point of origin (page 2).




                                                 i                FY01 Semiannual Report No. 2
                                                   EXECUTIVE SUMMARY
recommended that the Corporation provide           INVESTIGATIONS SECTION
more specific guidance on commission
oversight and monitoring responsibilities and      During this semiannual reporting period we
the conduct of periodic visits to subgrantee       received and processed 34 Hotline calls,
locations (page 3).                                opened 65 investigative actions, and
                                                   completed 65 investigative actions. We
The incurred-cost audit of the Oregon              referred five matters to the Department of
Community Service Commission resulted in           Justice for prosecution or civil enforcement.
questioned costs of more than $3 million of        Highlights of investigations closed during this
the $12.3 million in costs claimed, and            period are presented on page 12.
included 19 recommendations to the
Commission and the Corporation for                 Headquarters Operations
corrective actions (page 5).
                                                   A referral to management involving potential
Information Systems                                violations of the Fair Labor Standards Act is
                                                   pending management action (page 12).
OIG reviewed the Corporation’s Network and
Computer Security Plan to assess the               A referral to management involving security
effectiveness of security policies and             issues, identified during our investigation into
procedures. The audit report concluded that        files that were reported missing from the
the     Corporation generally    met    the        Corporation’s Equal Opportunity office, is
requirements of OMB Circular A-130 with            pending management action (page 12).
two exceptions identified.      OIG also
completed an audit of the Corporation’s            A referral to management involving the
System Development Life Cycle and                  reprimand of a Corporation employee for
concluded that the methodology provides a          providing information directly to the OIG is
good approach to system development, but           pending management action (page 12).
improvements could be made in three areas
(page 5).                                          Twenty-three referrals to management
                                                   involving the misuse of the government travel
Procurement                                        card by Corporation employees are pending
                                                   management action (page 13).
OIG conducted preliminary survey work of
procurements at Corporation service centers        A referral to management involving the false
around the country. The report noted that the      certification of timesheets by five Corporation
Corporation is implementing new procurement        employees is pending management action
policies and procedures at regional service        (page 13).
centers during fiscal year 2001. Therefore,
OIG decided to terminate this assessment and       Two referrals to management, one involving a
to delay testing of such procurement activities    Corporation employee engaging in alleged
until fiscal year 2003 when the new policies       misconduct with an AmeriCorps member and
have been in effect for a reasonable period of     the other involving the potential violation of
time (page 6).                                     Corporation procurement policy by an




                                              ii                 FY01 Semiannual Report No. 2
                                                    EXECUTIVE SUMMARY
employee who signed a purchase request              Theft of $25,000 of non-federal funds by the
without   authorization     are     pending         director of an RSVP grantee resulted in court-
management action (page 13 and 14).                 ordered compensatory damages (page 15).

Grantees/AmeriCorps Members
                                                    OIG FY 2001 PERFORMANCE AND
Two AmeriCorps members each at different            FINANCIAL INFORMATION
Corporation grantees, who prepared and
submitted false service hour timesheets were        As it is our custom, OIG’s Performance
terminated by the grantees and are not eligible     Information is included in this Semiannual
to receive education awards.        An arrest       Report (pages 33-37). Page 38 provides
warrant is outstanding for one of the members       information on our use of our budgetary
(page 14 and 15).                                   resources.

Improper certification of eligibility by an
AmeriCorps program manager resulted in the          OUTREACH EFFORTS
payment of $10,300 in education awards that
were not earned. The grantee reimbursed the         As a part of our ongoing fraud prevention
Corporation (page 15).                              efforts, the Deputy Inspector General for
                                                    Investigations and Operations provided an
A referral to management involving an               OIG presentation at the most recent
imposter using a false identity to enroll as an     Corporation New Employee Orientation
AmeriCorps*VISTA member and earn an                 session.     The presentation included the
education award is pending management               authority and responsibilities of the OIG and
action (page 15).                                   when and how employees should contact the
                                                    OIG.




                                              iii                 FY01 Semiannual Report No. 2
         IG ACT REPORTING REQUIREMENTS
This table cross-references the reporting requirements prescribed by the Inspector General Act of
1978, as amended, to the specific pages in the report where they are addressed.

   Requirement                                                                           Page

 Section 4 (a)(2)    Review of legislation and regulations                                18
 Section 5 (a)(1)    Significant problems, abuses, and deficiencies related to the     Throughout
                     administration of Corporation programs and operations
 Section 5 (a)(2)    Recommendations with respect to significant problems, abuses,     Throughout
                     and deficiencies found in the administration of Corporation
                     programs and operations
 Section 5 (a)(3)    Prior significant recommendations on which corrective action       28 – 32
                     has not been completed
 Section 5 (a)(4)    Matters referred to prosecutive authorities                          17
 Section 5 (a)(5)    Summary of instances where information was refused                None this
                                                                                        period
 Section 5 (a)(6)    List of audit reports by subject matter showing dollar value of      1-6
                     questioned costs and recommendations that funds be put to
                     better use
 Section 5 (a)(7)    Summary of each particularly significant report                   Throughout
 Section 5 (a)(8)    Statistical table showing number of reports and dollar value of      20
                     questioned costs
 Section 5 (a)(9)    Statistical table showing number of reports and dollar value of      21
                     recommendations that funds be put to better use
 Section 5 (a)(10)   Summary of each audit issued before this reporting period for        22
                     which no management decision was made by end of reporting
                     period
 Section 5 (a)(11)   Significant revised management decisions                          None this
                                                                                        period
 Section 5 (a)(12)   Significant management decisions with which the Inspector            6–9
                     General disagrees




                                             iv                      FY01 Semiannual Report No. 2
                                  AUDIT SECTION
The Office of Inspector General Audit Section is responsible for reviewing financial, administrative,
and program aspects of Corporation operations. It carries out these responsibilities by conducting the
audit of the Corporation’s annual financial statements, assessing the Corporation’s management
controls, auditing Corporation operations, and auditing individual grants, contracts, and cooperative
agreements funded by the Corporation. All OIG audit reports are referred to Corporation
management for action or information. A list of the reports issued by the Audit Section during this
period can be found on pages 10 and 11.


                             FINANCIAL MANAGEMENT
Recommended Improvements to the Corporation’s Internal Controls Fiscal Year 2000 –
Management Letter (OIG Audit Report Number 01-02)

The Government Corporation Control Act (31 U.S.C. 9101 et seq.) requires the Office of Inspector
General to annually audit the Corporation’s financial statements. OIG contracted with KPMG to
audit the Corporation’s fiscal year 2000 statements. This audit, conducted in accordance with
government auditing standards, resulted in an unqualified opinion on the Corporation’s Statement of
Financial Position as of September 30, 2000 and the related Statements of Operations, Changes in Net
Position, and Cash Flows for the year then ended. We reported on the results of the audit in our prior
semiannual report.

During the course of the audit, the auditors noted other matters involving the Corporation’s internal
controls that were not considered material weaknesses or reportable conditions. These conditions
were reported in the annual audit management letter, issued July 13, 2001, that included 33
recommendations in eight subject areas (grants management, national service trust, annual financial
report, revenue from reimbursable agreements, information technology, procurement and general
expenses, human resources, and net position).

Financial Reporting An Analysis of Alternatives and Recommendation (OIG Audit Report Number
01-33)

The OIG also engaged KPMG to provide a study on the Corporation’s financial reporting and basis of
accounting, including an analysis of alternatives and recommendations. KPMG reviewed the
Corporation’s legislation (authorization and appropriations), budget, and current financial statements,
and obtained an understanding of the Corporation’s structure and operations. The study concluded
that the Corporation is in substance a federal agency by virtue of its reliance on appropriated funds,
and that Financial Accounting Standards Board private sector standards that the Corporation has
historically used do not provide for the reporting of essential budgetary information or program
performance data as required by the Federal Accounting Standards Advisory Board that government
agencies and other entities now use for financial reporting. The study recommended that the
Corporation consider adopting the federal reporting model. The Corporation agreed that the federal
reporting model provided useful information on the Corporation’s operations and indicated it intends




                                              1                      FY01 Semiannual Report No. 2
                                                                                        AUDITS

to continue enhancing its financial statements as deemed relevant, cost effective and useful to the
financial statement reader.

Response to the Subcommittee on VA, HUD and Independent Agencies’ Request for Review of the
Corporation for National Service’s Fiscal Year 2002 Funding Request for the National Service
Trust Fund (OIG Audit Report Number 01-49)

In response to a Congressional request, the OIG engaged KPMG to review the methodology the
Corporation used in calculating its fiscal year 2002 Trust Fund budget authority request. The report
found adequate support for the Corporation's decision to request no additional funding for the Trust
Fund in fiscal year 2002. The analysis also noted that it is likely that Congress will need to
appropriate approximately $75 million in fiscal year 2003 to fund the awards for the 2003 program
year assuming Congress elects to continue the program at levels consistent with historical experience
over the past several years. The Corporation did not significantly disagree with the report but noted
several considerations regarding the assumptions used in preparing its budget estimates.


                        GPRA PERFORMANCE REPORTING
Audit of Controls Over the Corporation for National and Community Service’s Key Performance
Indicators and Accomplishment Statistics (OIG Audit Report Number 01-28)

KPMG was engaged to assess the internal controls related to key indicator and accomplishment
statistics included in the Corporation’s Fiscal 2000 Performance Report required by the Government
Performance and Results Act of 1993 (GPRA). Overall, the report concluded that the Corporation’s
key internal controls over the performance information need improvement. The audit revealed,
among other findings, that the Corporation lacks policies and procedures to assure that the statistics in
its Performance Report were accurately compiled and reported, and fails to verify data entered for
accuracy at its point of origin. The report includes specific recommendations to improve the controls,
the performance data, and the resulting report.


                   GRANT MANAGEMENT AND OVERSIGHT
The Corporation awards National and Community Service Act and Domestic Volunteer Service Act
grants to state and local governments, state commissions, institutions of higher education, and other
not-for-profit organizations. Grantees are required, among other things, to expend funds only for
allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic and
financial compliance with the terms of the respective grant agreements. The Corporation is
responsible for ensuring that grantees comply with applicable laws and regulations related to the
administration of grant awards, including those related to federal cash management requirements.

The OIG Audit Section performs audits of the Corporation’s oversight of grantees and audits of
specific grants to assess whether reported costs were allowable under federal regulations and whether
grantees complied with the terms and conditions of the awards. Our reports on Corporation grants
contain recommendations for correcting the deficiencies identified in the reports. Typically, the



                                               2                       FY01 Semiannual Report No. 2
                                                                                     AUDITS

recommendations are for the grantees to reimburse questioned costs and to establish and implement
policies and procedures to prevent future instances of non-compliance and improve internal controls.
We also make recommendations for increased oversight by the Corporation and improvements in
Corporation grants management operations

Report on the Review of the Corporation for National and Community Service National Direct
Grant Application Review Process (OIG Audit Report Number 01-31)

The OIG engaged Cotton & Company to review the Corporation’s grant application review process
(GARP). The review included procedures to document and assess the Corporation’s process for
awarding its fiscal year 2000 National Direct program grants, follow-up on the Corporation’s
progress in implementing recommendations made in OIG’s 1996 assessment of the application
process, and review compliance with legislative requirements.

The audit concluded that the FY 2000 process was conducted in a reasonably equitable manner.
Recommendations for improving the GARP process were provided, including paperwork reduction
and allowing more time for peer review of grant applications. Recommendations for improving the
Corporation’s grant files and its accounting for costs related to GARP were also included.

Additionally, the report focused on the requirement that the Corporation consider “sustainability” of
programs during the grant application process. It noted that “sustainability” is somewhat unclear and
recommended that Congress consider whether it needs to clarify its intent in establishing this
requirement. It also recommended that the Corporation consider developing performance goals
related to sustainability and reducing grantees’ reliance on federal funds.


Pre-Audit Surveys and State Commission Audits

Summary of Thirty-Seven State Commissions Pre-Audit Survey Reports (OIG Audit Report
Number 01-41)

This report summarized the first 37 state commission pre-audit surveys, four of which were
completed during this reporting period. They were Maryland, Connecticut, Massachusetts, and
Colorado. As discussed in our previous Semiannual Report to Congress for the period April 1, 2000
– September 30, 2000, these surveys were performed to provide OIG with a preliminary assessment
of the commissions’ pre-award and grant selection procedures, fiscal administration, and monitoring
of subgrantees (including AmeriCorps Member activities and service hour reporting). The surveys
were also intended to provide information on other audit coverage that will assist OIG in determining
the timing and extent of future audit work at each state commission and avoid duplication of effort.

Conclusions from these pre-audit surveys are:

        -   One of the 37 commissions has established systems that offered reasonable
            assurance that pre-award and grant selection procedures, fiscal administration,
            and monitoring of subgrantees were adequate during all program years surveyed.




                                                3                   FY01 Semiannual Report No. 2
                                                                                       AUDITS

            However, 25 commissions have initiated improvements in recent years, 16 of
            which are due to implementation of the Web Based Reporting System (WBRS).
        -   Twenty-two of the surveyed commissions, or approximately 60 percent, have
            established systems that provide for adequate fiscal administration of
            Corporation grant funds.
        -   Seventeen of the 37 commissions have established systems that provide
            reasonable assurance that the pre-award and grant selection procedures are
            adequate. Most were described as administering an open, competitive process to
            select national service subgrantees. However, many of the commissions did not
            always retain sufficient documentation to support their grant selection process, in
            particular conflict of interest forms signed by individuals reviewing applications.
        -   Thirty were found to have inadequate systems for monitoring their subgrantees.
            Assessment of the commissions’ systems for monitoring subgrantees proved to
            be the most problematic area in the pre-audit surveys. More emphasis needs to
            be placed on the commissions’ responsibility for subgrantee oversight.
        -   More than half of the 37 commissions had adequate systems for fiscal
            administration, but 17 lacked evidence of reconciling financial data on Financial
            Status Reports to underlying financial records.


The pre-audit survey reports contain various recommendations directed at each of the individual
commissions and at the Corporation to address the conditions that the auditors identified. Generally,
the reports recommend that the Corporation follow up with each commission to determine that
appropriate corrective actions are in place to address the following conditions that applied in many
jurisdictions:

        -   Lack of adequate procedures and guidance for evaluating and monitoring the
            performance of subgrantees.
        -   Failure to document periodic site visits and the specific monitoring steps
            performed.
        -   Absence of standard procedures for reviewing subgrantee Financial Status
            Reports and documenting the results, including the recalculation of matching
            requirements and comparison of FSRs with the underlying documentation.
        -   Lack of a systematic means of obtaining and reviewing OMB Circular A-133
            audit reports from subgrantees subject to such audits and failure to follow up on
            any deficiencies noted in the A-133 reports in a timely manner.


Additionally, the pre-audit surveys recommended that the Corporation revise its guidance to the
commissions on subgrantee monitoring to specify minimum procedures that must be performed and
minimum documentation requirements.




                                              4                      FY01 Semiannual Report No. 2
                                                                                        AUDITS

In responding to the individual reports, some state commissions disagreed with some of the reported
findings, but all but one of the 37 commissions indicated that they either agreed with, or have initiated
corrective actions in response to other findings and recommendations. Each of our survey reports
recommended that the Corporation follow-up to determine that the conditions reported have been
effectively corrected. Generally, the responses have indicated that the Corporation will consider the
reports during their administrative monitoring and oversight reviews to be performed on a three-year
cycle.

Audit of Corporation for National Service Grants Awarded to the Oregon Community Service
Commission (OIG Audit Report Number 01-04)

OIG engaged KPMG to perform an incurred cost audit of Corporation funds awarded to the Oregon
Community Service Commission for the period January 1994 through August 2000. The audit
revealed more than $3 million in questioned costs and resulted in 19 recommendations. The majority
of the questioned costs are a result of missing supporting documentation. The Commission has
responded that policies and procedures to correct the deficiencies have been developed; however they
were not in place during the period covered by the audit. The significance of the questioned costs, the
lack of controls over financial reporting and subgrantee monitoring, and the nature of the specific
findings that are identified in the report precluded KPMG from providing an auditor’s opinion
(assurance) on the more than $12 million in costs reported and claimed by the Oregon Commission.

Audit of Corporation for National Service Grants Awarded to the West Virginia Bureau of Senior
Services (OIG Audit Report Number 01-12)

OIG engaged L. G. Birnbaum and Company to audit costs claimed by the West Virginia Bureau of
Senior Services under CNCS grant number 439S059. The audit covered the period July 1, 1997
through June 30, 2000 and included procedures to determine if costs claimed in financial reports
prepared by the Bureau were allowable, internal controls were adequate to safeguard federal funds,
and whether the Bureau had policies and procedures adequate to ensure compliance with federal laws,
applicable regulations and award conditions.

The auditors questioned $63,418 of the $1,211,502 (5 percent) costs claimed over the three-year
period. About $56 thousand of the questioned costs results from the Bureau's withdrawal of funds
from the Corporation in excess of expenditures it claimed and reported for the three fiscal years
audited. As reported in Table II, this is considered an excess draw down of funds by the grantee,
which could have been used as awards for volunteers in other CNCS programs. The report discussed
this condition in detail and provided information on other compliance issues as well as other
questioned costs.

                                INFORMATION SYSTEMS
Review of the Corporation for National and Community Service’s Network and Computer Security
Plan (OIG Audit Report Number 01-34)

The OIG engaged KPMG to review the Corporation’s Network and Computer Security Plan and to
assess the effectiveness of security policies and procedures. The report concluded that the



                                               5                       FY01 Semiannual Report No. 2
                                                                                      AUDITS

Corporation generally met the requirements of OMB Circular A-130, “Management of Federal
Information Resources” with two exceptions. The first exception was that a Summary of the Security
Plan was not incorporated in the recent Corporation Information Strategic Plan dated October 19,
2000. The second exception was that no management document specifically authorized connecting
the Corporation LAN to the Internet. KPMG recommended that both of these findings be corrected
because they are good management practices and are required by OMB Circular A-130.

Review of the Corporation for National and Community Service’s System Development Life Cycle
(OIG Audit Report Number 01-35)

The Corporation has installed several new computer applications and system upgrades in recent years
and plans to develop and install additional major applications and systems. KPMG was engaged to
assess the Corporation’s Structured Systems Development Life Cycle (SSDLC) methodology. The
report concluded that the Corporation’s methodology provides a good approach to system
development, but recommends improvements in three areas – policy goals, minimum requirements,
and the review of development documents as refinements are made to the system.


                         PROCUREMENT MANAGEMENT
Letter Report Regarding Review of Procurement Activities at Service Centers (OIG Audit Report
Number 01-32)

OIG retained Cotton & Company to perform preliminary survey work related to possible reviews of
the service centers. Cotton & Company determined that OIG’s financial statement audit work
included testing of service center procurement activities that revealed a few minor problems that have
been brought to management’s attention. Additionally, Cotton & Company learned that the
Corporation is scheduled to implement its new procurement system at the service centers during FY
2001. Therefore, OIG decided to terminate the assessment and to test service center procurement
activities in FY 2003.

                                  AUDIT RESOLUTION
Audit Resolution Process

The Corporation's audit resolution process essentially consists of four steps. After OIG issues an
audit report, the Corporation normally issues a Proposed Management Decision (PMD) responding to
the report's findings and recommendations generally not more than five months after the final report
is issued. If OIG disagrees with managements proposed corrective actions, OIG submits written
comments within thirty days of receiving the PMD. Not more than six months after an audit report is
issued, the Corporation’s audit resolution policy requires that the Chief Financial Officer respond to
the audit with a Management Decision (MD) describing approved corrective actions and a timetable
for implementing them. Final action on corrective measures must be completed within twelve months
of the audit report's publication. Management subsequently transmits a Notification of Final Action
when all corrective measures have been completed and the responsible management official has
verified their accomplishment. At this point, management considers the audit report to be closed. In



                                              6                      FY01 Semiannual Report No. 2
                                                                                     AUDITS

some cases, OIG may elect to continue to track the status of certain significant findings and
recommendations if OIG is not fully satisfied that the proposed corrective actions have been
effectively implemented.

Additionally, OIG and management representatives periodically meet to review open audit
recommendations. During this semiannual reporting period, these sessions reviewed open
recommendations from audit reports that were issued more than one year ago. After reviewing
management's documentation relating to implementation of effective corrective actions, OIG agreed
to close twenty-two recommendations. This cooperative effort was designed to review and close, if
possible, numerous recommendations that have remained open for more than twelve months. Similar
audit resolution sessions will occur in Fiscal Year 2002 as part of a continuing effort to reduce the
number of open recommendations from older audit reports.

Management Decisions (MDs)

During the period from April through September 2001, OIG received thirteen management decisions
including two on procurement audits (OIG Report 00-12, Follow-up Audit of the Corporation's
Procurement Operations, and OIG Report 00-22, Audit of Contract Number CNCS 94-002 with
Encore Management Corporation), one on financial management (OIG Report 01-01, Audit of the
Corporation for National and Community Service's Fiscal Year 2000 Financial Statements) and ten
responding to pre-audit surveys in Alabama (OIG Report 01-20), California (OIG Report 01-18),
Connecticut (OIG Report 01-21), Maine (OIG Report 01-19), Maryland (OIG Report 01-16),
Massachusetts (OIG Report 01-24), Nevada (OIG Report 01-17), South Carolina (OIG Report 01-22),
Texas (OIG Report 01-23), and Vermont (OIG Report 01-26).

The Corporation deviated from the normal audit resolution processing steps described above by
failing to issue PMDs for ten of the above reports  thus, sidestepping OIG’s comments on the
proposed decisions. Between September 21 and September 28, the Corporation issued MDs on Audit
Reports 01-01 and Pre-Audit Survey Reports 01-16 through 01-22, 01-24, and 01-26. As a result,
OIG will provide any comments on these management decisions during October 2001. Accordingly,
these reports and management's actions will be addressed in the next Semi-Annual Report covering
the period October 1, 2001 to March 31, 2002.

Decisions Related to OIG Audits of CNCS Contracts

During this semiannual reporting period, the Corporation notified OIG of management decisions for
two audit reports on CNCS contracts (OIG Report 00-12, Follow-up Audit of the Corporation's
Procurement Operations, and OIG Report 00-22, Audit of Contract Number CNCS 94-002 with
Encore Management Corporation). OIG disagreed with both MDs. Management's decision on Audit
Report 00-12 failed to adequately address at least five of the report's recommendations. OIG
continues to believe that the Corporation should:

        -   document in the contract file the basis for determining each vendor's business
            classification as a small business;
        -   revise its procurement directive to provide more detailed examples for contract
            specialists and purchasing agents;



                                             7                      FY01 Semiannual Report No. 2
                                                                                         AUDITS

        -   revise its procedures for processing and expediting payments to vendors and
            strive to reduce late payments; and
        -   establish a reasonable dollar threshold over which its determination of best value
            must be documented when it elects to purchase supplies using the General
            Services Administration's multiple award schedules.


OIG also received the Corporation's MD on OIG Audit Report 00-22, Audit of Contract Number
CNCS 94-002 with Encore Management Corporation. This report identified questioned costs of $1.1
million on a labor services contract for the period July 25, 1994 through December 31, 1998. The
audit identified serious deficiencies relating to the contractor's billings at labor rates not included in
the contract, use of labor categories not specified in the contract, and improper calculations of indirect
costs, other direct costs, the general and administrative rate, and the fixed profit amount. In its
decision, the Corporation stated that it recognized the need for an equitable adjustment. Instead of
resolving the issues in the independent audit report, however, the Corporation has indicated that it
intends to contract with another firm to conduct an incurred cost audit to determine allowable direct
costs, indirect rates, and profit under this contract. At this time, OIG is unable to concur in this MD
because the Corporation will not make any final decisions on the questioned costs until the incurred
cost audit is completed. OIG's final decision must await the results of that audit and the related
contractual modification specifying the costs and fees ultimately determined to be allowable for fiscal
years 1994-1998.

Decisions Related to Pre-Audit Surveys of State Commissions

In its pre-audit surveys concerning the state commissions, OIG made recommendations directed at
both the Corporation and each commission. While most recommendations in the surveys are directed
at the individual commissions, they also identified matters that apply generally to all commissions
and require centralized guidance, direction, and oversight from the Corporation. The following
comments focus on recommendations directed at the Corporation.

OIG disagreed with the management decisions concerning some of the recommendations contained in
the audit reports on Alabama (Report 01-20) and Maine (Report 01-19). In general, the Corporation
continued its refusal to acknowledge that guidance the Corporation has issued to the state
commissions on monitoring the activities of subgrantees is inadequate and incomplete. In Maine, this
issue relates to procedures for testing selected fiscal and programmatic transactions (AmeriCorps
Member eligibility, prohibited activities, and allowability of costs), selecting a sufficiently large
number of files to ensure a more representative sample, and documenting the items selected for
oversight review. OIG also disagreed with the Corporation's failure to place more stringent controls
on the level of access granted to different users at the subgrantee level to the Web-Based Reporting
System (WBRS), the Corporation's principal automated resource for programmatic and financial
information. Permitting multiple users to gain overlapping access to WBRS could compromise the
integrity of the reporting process and allow individuals to gain access to levels of authority on the
system that are inconsistent with their official duties and responsibilities. The Corporation also
disagreed with the recommendation that written procedures describing a methodology for
independently verifying the accuracy of subgrantee claims concerning performance measures and
statistics. Without this verification process, OIG concluded performance claims may be unreliable.



                                               8                       FY01 Semiannual Report No. 2
                                                                                       AUDITS

Similarly in the Alabama report, OIG recommended that the Corporation conduct annual site visits
for the next three years to the Alabama State Commission (identified as a high-risk grantee as a result
of the pre-audit survey) to ensure corrective actions were implemented and operating effectively. The
Corporation rejected this approach to its oversight of the Commission. The report also recommended
that the Corporation assist the Commission by developing more comprehensive site visit monitoring
tools. OIG has consistently found that existing tools are clearly insufficient. The Corporation
disagreed with this recommendation and insisted that applicable OMB circulars, particularly A-133,
and the Corporation's State Administrative Standards, provide adequate guidance on the
Commission's role in monitoring subgrantees in Alabama. OIG has concluded that reliance on OMB
Circular A-133 as the primary means for oversight of grantees and subgrantees is inappropriate since
grants awarded by the Corporation and Commissions generally are not tested as major programs
during A-133 audits. Moreover, the Alabama survey revealed that none of the Corporation’s
programs (including the Commission itself) had ever been audited as major programs under the
Circular’s requirements. For additional discussion of oversight monitoring issues, refer to the
discussion on page 7 of OIG's Semiannual Report No. 1 for Fiscal Year 2001.

Reported Final Action Issues

Additionally during the reporting period, OIG received two notifications of Final Action for OIG
Report 00-01, Audit of Corporation for National Service’s Fiscal Year 1999 Financial Statements,
and OIG Report 00-05, Audit of the Corporation for National and Community Service's Grants with
the Health Association of Niagara County.

While OIG concurred in the revised notice of final action for OIG Report 00-05, OIG did not agree
that all actions recommended in OIG Report 00-01 regarding the Financial Statements for Fiscal Year
1999 have been resolved. The Corporation's action was based on its determination that the open
recommendations in this report were repeated in Audit Report 01-01 concerning the Financial
Statements for Fiscal Year 2000. Both reports included recommendations to correct significant
deficiencies including material weaknesses. OIG disagreed with the Corporation's view that
recommendations in previously issued audit reports may be administratively closed merely because
the same or similar recommendations are contained in subsequently published audit reports.
Furthermore, OIG is currently engaged in the audit of the Financial Statements for Fiscal Year 2001
and testing of the Corporation's new financial policies and procedures to determine whether these
steps have been effectively implemented and are operating properly. In OIG's view, open
recommendations from these reports should not be closed until adequate testing to determine the
effectiveness of corrective actions is completed.




                                              9                      FY01 Semiannual Report No. 2
                                                                                           AUDITS

                         AUDIT REPORTS ISSUED DURING THE PERIOD
                          APRIL 1, 2001 THROUGH SEPTEMBER 30, 2001

      Report
      Number       Issue Date    Report Title

       01-02        07/13/01     Recommended Improvements to the Corporation's Internal Controls
                                 Fiscal Year 2000 – Management Letter
       01-04        09/27/01     Incurred Cost Audit of Grants Awarded to the Oregon Community
                                 Service Commission(1)
       01-12        09/24/01     Audit of Corporation for National Service Grant Number 439S059 to
                                 the West Virginia Bureau of Senior Services(2)
       01-16        04/04/01     Pre-Audit Survey of the Maryland Governor's Office of Service and
                                 Volunteerism
       01-21        04/04/01     Pre-Audit Survey of the Connecticut Commission on National and
                                 Community Service
       01-24        04/04/01     Pre-Audit Survey of the Massachusetts Service Alliance
       01-25        04/27/01     Pre-Audit Survey of the Colorado Governor's Commission on
                                 Community Service
       01-28        08/02/01     Audit of Controls Over the Corporation for National and Community
                                 Service's Key Performance Indicators and Accomplishment Statistics
       01-31        07/09/01     Report on the Review of the Corporation for National and Community
                                 Service National Direct Grant Application Review Process
       01-32        08/17/01     OIG Letter Report Regarding Corporation for National and
                                 Community Service Review of Procurement Activities at Service
                                 Centers
       01-33        06/19/01     Financial Reporting -- An Analysis of Alternatives and
                                 Recommendation
       01-34        05/07/01     Review of the Corporation for National and Community Service's
                                 Network and Computer Security Plan
                                                                                              (continued)
(1)
      As described in Table I, this report included questioned costs of $2,556,570, in federal funds,
      which were also unsupported costs. OIG Audit Report 01-04 revealed that documentation to
      support AmeriCorps members’ terms of service was not maintained and as a result, Education
      Awards of $621,029 in total may be questioned.
(2)
      As described in Table I, this report included questioned costs of $55,901 in federal funds.




                                                  10                       FY01 Semiannual Report No. 2
                                                                             AUDITS


              AUDIT REPORTS ISSUED DURING THE PERIOD
               APRIL 1, 2001 THROUGH SEPTEMBER 30, 2001

Report
Number   Issue Date   Report Title

01-35     05/25/01    Review of the Corporation for National and Community Service's
                      System Development Life Cycle

01-41     07/31/01    Summary of Thirty-Seven State Commission Pre-Audit Survey
                      Reports

01-49     06/15/01    Response to the Subcommittee on VA, HUD and Independent
                      Agencies' Request for Review of the Corporation for National
                      Service's Fiscal Year 2002 Funding Request for the National Service
                      Trust Fund




                                      11                     FY01 Semiannual Report No. 2
                      INVESTIGATIONS SECTION
We began this reporting period with 33 previously opened investigative actions. During this
reporting period we opened 65 new investigative actions and closed 65. We had 33 investigative
actions pending at the end of the reporting period.


                 HIGHLIGHTS OF INVESTIGATIONS CLOSED
                    DURING THIS REPORTING PERIOD
Potential Violations of Fair Labor Standards Act

We completed an investigation we opened after a member of Corporation management told us that
there might be improprieties in the timesheets of staff members at a Corporation office. We found
evidence that Corporation employees, with the knowledge, consent, and sometimes at the direction of
some Corporation managers, were working overtime without proper compensation. These acts
appear to violate the Fair Labor Standards Act. We also found evidence that timesheets were
incorrectly completed in order to conceal the improper acts. The Assistant United States Attorney for
the District of Columbia declined to accept this matter for prosecution in lieu of administrative action
by the Corporation. On June 28, 2001, we referred this matter to Corporation management for
disciplinary and/or other action as appropriate. Action taken by management will be reported when
we receive notification of such action. (01-010)

Files Missing from EO Office – Security Deficiencies Found

We completed an investigation we opened after being notified by the Director of the Corporation’s
Equal Opportunity (EO) Office that files containing documents that might be evidence in several EO
complaints concerning recent hires were missing from the EO office. The files pertained to the hiring
of two Corporation employees and the hiring resulted in multiple discrimination complaints. We were
unable to locate the files or determine who removed the files or why the files were removed. We
learned that the files were left unsecured within the EO office and we found problems with key
control and building security. On June 4, 2001, the security problems we found were identified for
management, along with our recommendations to mitigate or correct the problems. Corrective
actions taken by management as a result of our recommendations will be reported when they are
received. (00-029)

Employee Reprimanded for Providing Information Directly to OIG

We completed an investigation we opened after a Corporation employee reported she received a
reprimand for providing our office information. We found that the Corporation employee, after
providing us with information we requested without her first “clearing it through proper channels,”
received a written reprimand threatening her with disciplinary action if she failed to submit future
responses for review and clearance. The employee’s office director, the author of the reprimand,
admitted writing the reprimand and claimed he wrote it, in part, to enforce his supervisor’s directives
regarding “OIG inquiries/requests.” The office director’s supervisor denied issuing such directives,




                                               12                      FY01 Semiannual Report No. 2
                                                                    INVESTIGATIONS

claiming he instructed the office director to keep him informed of OIG requests. On June 4, 2001,
this matter was referred to management for their use in determining if disciplinary and/or other action
is warranted. We also recommended that management issue written guidance to all employees
reinforcing the OIG’s authority to have access to all material available to the Corporation which relate
to Corporation programs and operations. Action taken by management will be reported when we
receive notification of the action. (01-051)

Corporation Employees Misuse Government Travel Card

We completed 28 separate investigations that we opened as a part of our proactive review of
government travel card use by Corporation employees. We compared charges to the employees’
government travel card accounts to their official travel documents and found evidence that the
employees used their official government travel card for personal use. We referred 23 of these
investigations to Corporation management for their use in deciding what action to take against the
employees. The remaining five investigations pertain to employees who retired, resigned, died, or the
dollar amount involved was very low. Actions taken by management will be reported when we
receive notification of them. (01-025, 01-026, 01-027, 01-029, 01-037, 01-038, 01-040, 01-041, 01-
042, 01-044, 01-045, 01-046, 01-047, 01-048, 01-049, 01-050, 01-055, 01-057, 01-058, 01-060, 01-
073, 01-075, 01-077, 01-078, 01-079, 01-080, 01-081, 01-091)

Corporation Supervisor Steals Radio and Falsely Certifies Timesheets - Supervisor Dismissed
Action Pending Against Subordinates

We completed an investigation we opened after receiving information that a Corporation supervisor
stole Corporation property and was allowing subordinates to take time off without charging them
leave on their timesheets. We found evidence that the supervisor stole a CD/clock radio valued at
$122.49, which was purchased with Corporation funds. We also found evidence that the supervisor
and his five subordinates falsely certified a total of 161 work hours on the subordinates' timesheets by
failing to properly document the subordinate’s leave hours. The loss to the Corporation for the false
certification on the timesheets is $2,045.70. The supervisor resigned from the Corporation during our
investigation. We coordinated this matter with the local United States Attorney’s Office, and they
accepted the theft of the radio for prosecution. The supervisor was arraigned in federal court and
subsequently placed in a pretrial diversion program. He was required to perform 40 hours of
community service and to make restitution of $122.49 to the Corporation. The supporting Assistant
United States Attorney declined to accept for prosecution the false certification of the timesheets,
citing available administrative remedies. On May 15, 2001, the false certification of the timesheets
was referred to management for disciplinary action, as they deem appropriate, against the
subordinates. Action taken by management will be reported when we receive notification of the
action. (01-021)

Corporation Employee Engages in Alleged Misconduct with AmeriCorps Member

We completed an investigation we opened after the Corporation’s Office of General Counsel notified
us of an allegation of misconduct involving a Corporation employee and an AmeriCorps member.
Our investigation disclosed evidence that a Corporation employee engaged in a sexual relationship
with an AmeriCorps member and loaned her money. On June 14, 2001, this matter was referred to



                                               13                      FY01 Semiannual Report No. 2
                                                                    INVESTIGATIONS

management for their use in determining if disciplinary action is warranted.          Action taken by
management will be reported when we receive notification of the action. (01-056)

Employee Signs Purchase Request – May Have Violated Corporation Procurement Policy

We completed an investigation we opened after Corporation management notified us that a
Corporation employee might have signed a purchase request as the acting state director without the
state director’s authorization. The state director alleged that a program manager within his office
signed a procurement request for an AmeriCorps*VISTA in-service training (IST) as the acting
director without his (the state director’s) authorization. It appears that the program manager attempted
to schedule a AmeriCorps*VISTA IST in conjunction with another workshop and with a grantee
press release announcing the grantee’s partnership with the Corporation’s State Office. Only seven
AmeriCorps*VISTA members attended the training. The program manager authorized the use of
$1,790.40 of AmeriCorps*VISTA IST funds to purchase refreshments for eighty individuals and
$125 of AmeriCorps*VISTA IST funds for the equipment that was used during the various events. It
appears that the program manager violated Corporation policy when she made the procurement. We
found no evidence that the program manager signed the document with the intent to defraud the U.S.
Government. On June 28, 2001, this matter was referred to Corporation management for disciplinary
and/or other action as appropriate. Action taken by management will be reported when we receive
notification of such action. (01-012)

Stolen Laptop Computer Recovered

We completed an investigation we opened after receiving information that a Corporation laptop
computer, stolen in April 2000, was identified by serial number in a Toshiba class action settlement.
We determined that a non-Corporation employee living in San Francisco filed the class action
settlement claim with Toshiba. This individual claimed he purchased the computer in San Francisco
from a person he did not know. We recovered the laptop computer from the non-Corporation
employee, and after examining the hard drive for investigative leads, released it to the Corporation.
Absent further leads that would identify the individual that stole the laptop, the matter was closed
with no further investigative activity anticipated. (01-028)

False Timesheets Result in Termination of AmeriCorps Member

We completed an investigation we opened after a state commission reported that an AmeriCorps
member falsified her timesheet. Our investigation disclosed evidence that an AmeriCorps member
falsified her timesheet, reflecting service hours she did not perform. The member was terminated by
the grantee and did not qualify for, or receive, an education award. We found evidence that the
former member consistently reported performing tutoring services for one particular individual at this
individual’s apartment complex management office. The apartment manager denied anyone ever
performing tutoring services in her office; further, the grantee’s executive director reported this
individual was not approved by the grantee to receive tutoring services. The United States Attorney
declined to accept this matter for prosecution based on the low dollar value. The State Attorney’s
Office accepted this matter for prosecution, we coordinated the matter with local law enforcement
authorities and an arrest warrant for the former AmeriCorps member was issued. Under state law,
arrest warrants issued for misdemeanor offenses are not actively pursued. We anticipate no further



                                               14                      FY01 Semiannual Report No. 2
                                                                   INVESTIGATIONS

investigative activity by our office and will prepare no further reports concerning this matter unless
the subject is apprehended and prosecuted. (01-013)

AmeriCorps Member Forges Timesheets and is Dismissed Without Education Award

We completed an investigation we opened after receiving a copy of an email to the President of the
United States, sent to the President by a former AmeriCorps member making allegations of fraudulent
timesheets. We found evidence that an AmeriCorps member forged program timesheets by inflating
her service hours by 104.5 hours and signing supervisor’s name to the timesheets. The AmeriCorps
member was dismissed and is not eligible for an education award. The United States Attorney’s
Office declined prosecution, and although there was sufficient evidence that the former AmeriCorps
member inflated her service hours and forged her supervisor’s signature, the state prosecutor declined
prosecution because the government did not suffer a financial loss. No further investigative activity
or reporting is anticipated. (00-051)

Education Awards Paid to Ineligible AmeriCorps Members – Funds Recovered

We completed an investigation we opened after we learned that an AmeriCorps program reported that
some of their members did not complete the service hours required to earn an education award,
although the members were certified as eligible to receive the award. We found that the program
manager allowed the members to claim service hours for holidays, leave time, and other absences,
such as when the school where the member was serving closed for spring break. It appeared the
program manager mistakenly gave the members the same benefits as the staff. Review of member
records disclosed that education awards amounting to approximately $10,300 were disbursed for
members who did not have a sufficient number of service hours for an award. The grantee entered
into an agreement with the Corporation to reimburse the Corporation the $10,300 improperly
disbursed as education awards. No further investigative activity or reporting is anticipated. (00-034)

Imposter Enrolls as AmeriCorps*VISTA Member – Earns Award

We completed an investigation we opened after learning that an AmeriCorps*VISTA grantee was
informed by a law enforcement agency that one of the grantee’s former AmeriCorps*VISTA
members used a false identity to enroll as an AmeriCorps*VISTA. Investigation by a local law
enforcement agency disclosed evidence that the suspect assumed the identity of a former roommate
and subsequently engaged in fraudulent activity. The individual enrolled in an AmeriCorps*VISTA
program under the assumed name and earned an education award that he has not used. This matter
was referred to Corporation management for their use in determining if the individual’s education
award should be revoked. Action taken by management will be reported when notification of the
action is received. (01-018)

Theft of Non-Federal Funds Results in Court-Ordered Compensatory Damages

We completed an investigation we opened after receiving notification that the director of an RSVP
grantee was under investigation by local authorities for theft of funds and falsification of timesheets
while performing duties as the RSVP Director. Our investigation disclosed evidence that the RSVP
director (who has since been fired) and the assistant director (who retired before we were notified of



                                              15                       FY01 Semiannual Report No. 2
                                                               INVESTIGATIONS

this matter) stole approximately $25,000 from the proceeds of various fund raising activities. No
federal grant funds were stolen. The United States Attorney's Office pursued this matter via the
Affirmative Civil Enforcement (ACE) program and allowed the former director and former assistant
director to settle this case by paying a total of $2,600 in compensatory damages. (98-025)




                                           16                      FY01 Semiannual Report No. 2
                                                                                            INVESTIGATIONS


                           STATISTICAL SUMMARY OF INVESTIGATIONS


Opened and Closed

Number of Cases Open at Beginning of Reporting Period..............................                                     33


Number of New Cases Opened During This Reporting Period.......................                                          65


Number of Cases Closed During This Period With
Significant Findings.........................................................................................           40


Number of Cases Closed During This Period With
No Significant Findings...................................................................................              25


Total Cases Closed This Reporting Period......................................................                          65


Number of Cases Open at End of Reporting Period........................................                                 33


Referred

Number of Cases Referred for Prosecution During
This Reporting Period......................................................................................              5


Number of Cases Accepted for Prosecution During
This Reporting Period......................................................................................              2


Number of Cases Declined for Prosecution During
This Reporting Period......................................................................................              4

Number of Cases Pending Prosecutive Review...............................................                                1




                                                              17                                 FY01 Semiannual Report No. 2
    REVIEW OF LEGISLATION & REGULATIONS
Section 4(a)(2) of the Inspector General Act requires the Office of Inspector General to review and
make recommendations about existing or proposed legislation and regulations relating to the
Corporation’s programs and operations. OIG recommendations are to address the impact of
legislation and regulations on the economy and efficiency of the Corporation's administration and
operations. OIG is also to make recommendations concerning the impact of legislation and
regulations on the prevention and detection of fraud and abuse in programs and operations that the
Corporation administers and funds.

Status of Efforts to Develop Cost Accounting and Grant Management Systems and Central
Archives

In providing the Corporation's funding for fiscal year 2001 as part of the Departments of Veterans
Affairs and Housing and Urban Development, and Independent Agencies Appropriations Act (Public
Law 106-377), Congress specified that not less than $2 million dollars shall be used for the
acquisition of a cost accounting system, establishment of an integrated grants management system,
and creation of a central archives serving as the repository for all Corporation grants, cooperative
agreements and related documents. The Corporation has awarded a contract to develop a new
automated grants management system that is scheduled to be initially operational in April 2002 while
attaining full operational capability during the following year. Similarly, a Corporation contractor
recently completed an assessment of the Corporation's cost allocation methodology, and the
Corporation is considering that report's recommendations and follow up actions to refine the cost
accounting model and improve its capabilities.

Concerning the requirement for a central archive, OIG reviewed the Corporation's proposed policy on
Grant Files Management and suggested a number of revisions. Most significantly, the policy
continues to permit each office that issues a grant award, the five service centers and headquarters to
maintain their own grant files. OIG expressed concern to the Corporation that this policy was
inconsistent with Public Law 106-377's mandate that grant files be centrally archived. The
Corporation responded that it was not cost effective to have five services centers duplicate and
forward files to headquarters, nor does the headquarters office building have sufficient available
storage space for all grant-related records. The Corporation also advised that grant files will not
include related records, like grant applications, peer review evaluation and analysis records, and
award decision documents, in a single file maintained at one headquarters location. Accordingly,
under the proposed policy on Grant Files Management, records pertaining to grants will be
maintained at various locations for the foreseeable future. This approach is not fully consistent with
the central archives concept.

Clarification of "Sustainability" Requirement

During the reporting period, OIG issued an audit report on the Corporation's National Direct Grant
Application Review Process (page 3) that included a discussion of the legislative intent when the
requirement for "sustainability" was included in section 115 (42 US Code section 12527) and section
133 (42 US Code section 12585) of the National and Community Service Act. The statute does not
define this term, and it can be interpreted in several different ways. One interpretation is that a
grantee should over time become self-sufficient, develop alternative funding sources, and be able to




                                              18                       FY01 Semiannual Report No. 2
             REVIEW OF LEGISLATION & REGULATIONS
operate without continuing Corporation support and assistance. On the other hand, the Corporation's
interpretation is that sustainability simply means that a program is viable, operating effectively, and
worthy of additional federal funding and assistance. In fact, many of the current National Direct
grantees have regularly received Corporation grants since 1994. While Congress did not forbid
providing successive grants to the same grantee, the legislative history does focus on the goal of
reducing grantee's reliance on federal funding. The audit report recommends that Congress consider
whether it needs to clarify what was intended by requiring the Corporation to consider
"sustainability" of programs during the Corporation's assessment of grant applications and whether a
clear measure of a grantee's reliance on federal funding should be established.




                                              19                       FY01 Semiannual Report No. 2
                                    TABLE I
                INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS


                                                                              Federal Costs
                                                     Number        Questioned        Unsupported
                                                                              (Dollars in thousands)

  1.     For which no management decision              10             $    10,524                 $ 2,729
         had been made by the commencement
         of the reporting period


  2.     Which were issued during the                    2                  2,613                      2,557
         reporting period
                                                        _             _________                ________


  3.     Subtotals (1 plus 2)                          12                  13,137                      5,286


  4.     For which a management decision                 2
         was made during the reporting period:


         (i)     dollar value of disallowed             *                    539                          0
                 costs

         (ii)    dollar value of costs not                                     1                          0
                 disallowed

  5.     For which no management decision
         had been made by the end of the
                                                       10              $ 12,597                  $ 5,286
         reporting period (3 minus 4)
  6.     Reports with questioned costs for               8             $   9,984
         which no management decision was
         made within six months of issuance
*The Corporation's management decision did not address approximately $539 thousand of costs
questioned related to Contract No. CNCS 94-002 as reported in OIG Audit Report 98-24, Audit of the
Corporation's Procurement and Contracting Processes and Procedures. This contract was subsequently
audited, including follow-up to the $539 thousand in questioned costs, and the results were reported in
OIG Audit Report 00-22, Audit of Contract No. CNCS 94-002 with Encore Management Corporation.
The Corporation indicated that $94,091 was received from the contractor as partial recovery of the $539
thousand in questioned costs. Moreover, although the Corporation provided the Final Management
Decision to OIG Audit Report 00-22 on June 1, 2001, the decision fails to address questioned costs related
to this contract as discussed on page 8 of the report.



                                              20                           FY01 Semiannual Report No. 2
                                     TABLE II
                INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
                         THAT FUNDS BE PUT TO BETTER USE


                                                                 Number              Dollar Value
                                                                                   (Dollars in thousands)


  A.     For which no management decision had been made              0                    $ 0
         by the commencement of the reporting period

  B.     Which were issued during the reporting period               1*                     56


  C.     For which a management decision was made during
         the reporting period


         (i)    dollar value of recommendations that were
                agreed to by management


                based on proposed management action                  0                        0


                based on proposed legislative action                 0                        0



         (ii)   dollar value of recommendations that were
                                                                     1                        0
         not
                agreed by management



  D.     For which no management decision has been made              1                    $56
         by the end of the reporting period


  E.     Reports for which no management decision was                0                    $ 0
         made within six months of issuance



*OIG Audit Report 01-12, Audit of Corporation for National Service Grant Number 439S059 to the West
Virginia Bureau of Senior Services, page 5, reported an instance where excess draw downs of federal
funds by the grantee could have been used as awards for volunteers in other CNCS programs.




                                             21                          FY01 Semiannual Report No. 2
                                TABLE III
          SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS



                                                       Federal                     Status as of
Report                                                 Dollars     Management     September 30,
Number                       Title                    Questioned   Decision Due        2001
99-09    Audit of Corporation for National Service    $ 739,458     11/02/99      Management has
         Contract No. 95-743-1009 with Biospherics,                               not resolved the
         Inc.                                                                     questioned costs.

99-10    Audit of Corporation for National and          296,665     01/29/00      Management has
         Community Service Contract No. 95-001 with                               not resolved the
         TvT Associates, Inc.                                                     questioned costs.

99-18    Audit of Corporation for National and           50,850     02/13/00      Management has
         Community Service Contract No. 97-743-                                   not resolved the
         1001 with GS Tech, Inc.                                                  questioned costs.

00-02    Audit of Corporation for National and            7,279     05/29/00      Management has
         Community Service Contract No. CNCS 94-                                  not resolved the
         004 and 97-743-1006 with Aguirre                                         questioned costs.
         International

00-21    Audit of the Corporation for National and    7,379,847     07/05/00      Management has
         Community Service Contract No. 95-743-                                   not resolved the
         1005 with Outsourced Administration                                      questioned costs.
         Systems, Inc.
00-22    Audit of Corporation for National and        1,102,982     03/20/01      Management has
         Community Service Contract No. CNCS 94-                                  not resolved the
         002 with Encore Management Corporation                                   questioned costs.

00-23    Audit of the Corporation for National and       36,852     12/12/00      Management has
         Community Service Contracts No. CNCS 94-                                 not resolved the
         003 and No. 95-002 with Hi-Tech                                          questioned costs.
         International, Inc.

01-03    Pre-Audit Survey of the Oregon Community        __         04/16/01         Overdue
         Service Commission
                                                                                    (continued)




                                         22                        FY01 Semiannual Report No. 2
                                TABLE III
          SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS


                                                      Federal                      Status as of
Report                                                Dollars      Management     September 30,
Number                       Title                   Questioned    Decision Due       2001
01-05    Audit of Corporation for National and       $   369,652    07/11/01        Overdue
         Community Service Grant Numbers
         94SCSDE008, 94ASCDE008, 95PDSDE008,
         and 95LCSDE002 Awarded to Delaware
         Community Service Commission

01-14    Review of the Corporation’s Use of Single       __         07/31/01        Overdue
         Audit Reports

                            Total                    $9,983,585




                                         23                        FY01 Semiannual Report No. 2
                                    TABLE IV
                      REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                          REPORTS WITHOUT FINAL ACTION


                                                                                            Final
Report                                                                         Date         Action
Number                                Title                                   Issued         Due
98-02    Review of Corporation for National and Community Service           04/27/98       04/27/99
         Pre-award Financial Assessment of Grant Applicants

98-23    Auditability Assessment of the Corporation for National            07/08/98       07/08/99
         Service at September 30, 1997

99-01    Audit of Corporation for National and Community Service            10/09/98       10/09/99
         Statement of Financial Position (September 30, 1997)

99-02    Recommended Improvements to the Corporation’s Internal             11/17/98       11/17/99
         Controls (Management Letter)

99-04    Audit of Congressional Hunger Center Cooperative Agreement         01/22/99       01/22/00
         No. 96ADNDC099

99-05    Evaluation of the Corporation’s Monitoring and Oversight of        02/26/99       02/26/00
         Cooperative Agreement Awarded to Congressional Hunger
         Center

99-09    Audit of Corporation for National Service Contract No. 95-         05/06/99       05/06/00
         743-1009 with Biospherics, Inc.

99-10    Audit of Corporation for National and Community Service            08/02/99       08/02/00
         Contract No. 95-101 with TvT Associates, Inc.

99-12    Audit of the Corporation for National and Community                04/09/99       04/09/00
         Service’s Fiscal Year 1998 Financial Statements

99-15    Audit of Corporation’s Oversight and Monitoring of the Health      09/14/99       09/14/00
         Benefits Program

99-18    Audit of Corporation for National and Community Service            08/27/99       08/27/00
         Contract No. 97-743-1001 GS Tech, Inc.

99-24    Recommended Improvements to the Corporation’s Internal             06/30/99       06/30/99
         Controls – Fiscal Year 1998 Management Letter
                                                                                         (continued)




                                          24                             FY01 Semiannual Report No. 2
                                  TABLE IV
                    REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                        REPORTS WITHOUT FINAL ACTION


                                                                                        Final
Report                                                                       Date       Action
Number                                Title                                 Issued       Due
00-01    Audit of the Corporation for National and Community Service’s     03/31/00    03/31/01
         Fiscal Year 1999 Financial Statements

00-02    Audit of Corporation for National and Community Service           11/30/99    11/30/00
         Contract No. CNCS 94-004 and 97-743-1006 with Aguirre
         International

00-04    Evaluation of the Corporation’s Oversight and Monitoring of the   12/14/99    12/14/00
         Cooperative Agreement with the National Association of Child
         Care Resources Referral Associations

00-06    Pre-Audit Survey Report of the Delaware Community Service         05/18/00    05/18/01
         Commission

00-07    Pre-Audit Survey Report of the Iowa Commission on Volunteer       05/18/00    05/18/01
         Service

00-08    Pre-Audit Survey Report of the North Carolina Commission on       05/30/00    05/30/01
         Volunteerism and Community Service

00-09    Pre-Audit Survey of the Tennessee Commission on National and      02/09/00    02/09/01
         Community Service

00-10    Pre-Audit Survey Report of the Washington Commission on           05/10/00    05/10/01
         National and Community Service

00-11    Pre-Audit Survey Report of the Kentucky Commission on             06/20/00    06/20/01
         Community Volunteerism and Service

00-14    Pre-Audit Survey of the Pennsylvania Commission on National       03/28/00    03/28/01
         and Community Service

00-15    Pre-Audit Survey of the Ohio Governor's Community Service         04/12/00    04/12/01
         Council

00-16    Pre-Audit Survey of the West Virginia Commission on National      03/27/00    03/27/01
         and Community Service
                                                                                      (continued)




                                              25                     FY01 Semiannual Report No. 2
                                  TABLE IV
                    REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                        REPORTS WITHOUT FINAL ACTION


                                                                                      Final
Report                                                                    Date        Action
Number                              Title                                Issued        Due
00-17    Pre-Audit Survey of the Missouri Community Service             03/28/00     03/28/01
         Commission

00-18    Pre-Audit Survey of the Virginia Commission on National and    03/24/00     03/24/01
         Community Service

00-19    Pre-Audit Survey of the New Hampshire Commission on            02/09/00     02/09/01
         National and Community Service

00-21    Audit of Corporation for National and Community Service        01/06/00     01/06/01
         Contract No. 95-743-1005 with Outsourced Administrative
         Systems, Inc.

00-22    Audit of Corporation for National and Community Service        09/21/00     09/21/01
         Contract No. 94-002 with Encore Management Corporation

00-23    Audit of the Corporation for National and Community Service    06/15/00     06/15/01
         Contracts No. CNCS 94-003 and No. 95-002 with Hi-Tech
         International, Inc.

00-24    Pre-Audit Survey Report of the Alaska State Community          08/08/00     08/08/01
         Service Commission
00-25    Pre-Audit Survey Report of the Michigan Community Service      07/12/00     07/12/01
         Commission

00-26    Pre-Audit Survey Report of the New Jersey Commission on        06/23/00     06/23/01
         National and Community Service

00-27    Pre-Audit Survey Report of the Rhode Island Service            06/23/00     06/23/01
         Alliance: A Commission for National and Community
         Service
00-28    Pre-Audit Survey Report of the Idaho Commission for            07/07/00     07/07/01
         National and Community Service

00-29    Pre-Audit Survey Report of the Wisconsin National and          06/23/00     06/23/01
         Community Service Board
                                                                                    (continued)




                                            26                     FY01 Semiannual Report No. 2
                                  TABLE IV
                    REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                        REPORTS WITHOUT FINAL ACTION

                                                                                       Final
Report                                                                     Date        Action
Number                              Title                                 Issued        Due

00-30    Pre-Audit Survey of the Florida Commission on Community         09/20/00     09/20/01
         Service

00-31    Pre-Audit Survey of the Minnesota Commission on National        06/09/00     06/09/01
         and Community Service

00-32    Pre-Audit Survey of the Illinois Commission on Community        06/29/00     06/29/01
         Service

00-33    Pre-Audit Survey of the Kansas Commission for National and      09/29/00     09/29/01
         Community Service

00-34    Pre-Audit Survey of the New Mexico Commission for               07/26/00     07/26/01
         Community Volunteerism

00-35    Pre-Audit Survey of the Wyoming Commission for National         05/16/00     05/16/01
         and Community Service

00-38    Recommended Improvements to the Corporation's Internal          06/27/00     06/27/01
         Controls Fiscal Year 1999 – Management Letter




                                            27                      FY01 Semiannual Report No. 2
                                   TABLE V
               STATUS OF SELECTED KEY OPEN RECOMMENDATIONS ON
                       CORPORATION MANAGEMENT ISSUES

 The following table provides a prioritized selection of key open audit recommendations from OIG
 reports issued more than one year ago on which OIG has determined that corrective actions are not
 complete. The description of the Corporation’s responses or corrective actions is based on
 information provided in its proposed management decisions, final management decisions, and audit
 resolution status tables.

Grant Oversight and Monitoring

Grants Management System – Implement an integrated functional grants management system. This
recommendation was initially reported in fiscal year 1998.

  Management Response/Action – In progress. The Corporation reported that it engaged a contractor to
  design a grant system and once the design is completed, the Corporation will develop and implement
  this system. The Corporation expects to have the system fully implemented by the end of fiscal year
  2003.

Web-Based Reporting System (WBRS) – Design additional controls for implementation at the grantee
level that consider the paperless environment in which WBRS operates. These controls should include
routine review of error listings generated by WBRS by someone other than the person inputting data to
the system, a spot check of underlying support for the data submitted via WBRS on a periodic basis, and
improved access controls to WBRS at grantee and subgrantee sites, as appropriate. This recommendation
was initially reported in fiscal year 2000.

  Management Response/Action – In progress. The Corporation agreed and reported it is in the process
  of updating WBRS control procedures to include routine review of error listings by WBRS by
  someone other than the person inputting data into the system. The updated procedures reportedly will
  be implemented during fiscal year 2002.

Expired Grants – The Corporation should develop a consistent method for identifying expired grants
and for administratively closing these grants in a timely manner. Review and follow-up procedures by
the Service Centers and headquarters should be implemented to ensure Program Offices respond to
correspondence and that grants are closed timely. This recommendation was initially reported in fiscal
year 1998.

  Management Response/Action – Corrective action has been initiated. The Corporation has awarded a
  contract to obtain assistance in closing expired grants. The contractor reportedly has closed
  approximately 200 of these grants out of a total of about 900. OIG will assess progress on this
  initiative during the fiscal year 2001 financial statements audit.
                                                                                           (continued)




                                             28                        FY01 Semiannual Report No. 2
                                    TABLE V
                STATUS OF SELECTED KEY OPEN RECOMMENDATIONS ON
                        CORPORATION MANAGEMENT ISSUES

Grant Files – The Corporation should strengthen its controls over the completeness of grant files by
enforcing the use of file completeness checklists. Compliance with these procedures should be
monitored by supervisory spot checks of grant files. This recommendation was initially reported in fiscal
year 1998.

   Management Response/Action – Despite reported corrective action, recent OIG audits, including the
   audit of the Corporation’s financial statements for fiscal year 2000, continued to reveal numerous
   missing key documents, a significant obstacle to the conduct of effective audits. Accordingly, OIG
   will again assess the effectiveness of corrective measures during the fiscal year 2001 financial
   statements audit.

Pre-Award Guidelines – Revise guidelines over the pre-award financial assessment of grantees. This
recommendation was initially reported in fiscal year 1998.

   Management Response/Action – In progress. The Corporation agreed that this recommendation
   remains “open” and indicated that the Grants Management Office has issued revised guidelines for the
   pre-award financial assessments based on OIG’s recommendation. The Corporation reportedly plans
   to include these guidelines as part of a Corporation-wide document that must be formally processed
   and coordinated under the Corporation’s policy for issuing new policies and procedures. Since a
   grantee’s financial management resources directly impact on its ability to administer a federal grant,
   OIG has kept this recommendation open and will review the grant application review and screening
   process to determine the effectiveness of pre-award analysis of grantees’ financial capabilities.

Grant Monitoring – Strengthen guidelines for grant monitoring and site visits. This recommendation
was initially reported in fiscal year 1999.

   Management Response/Action – Unresolved. The Corporation believes that its checklists and
   methodology for conducting oversight visits to program sites is sufficient. OIG disagrees based on the
   results of pre-audit surveys and full scope audits of state commissions and believes that more detailed,
   uniform guidance on procedures for conducting periodic oversight visits is essential. During future
   state commission audits, OIG will continue to assess the effectiveness of current procedures and
   methods.

Other Financial Management Issues

Budget – Continue to investigate and resolve differences in unexpended appropriations between the
proprietary and budgetary accounts, including those related to the balances brought forward into
Momentum from Federal Success. This recommendation was initially reported in fiscal year 1999.

   Management Response/Action – Corrective action reported. OIG will assess the effectiveness of the
   corrective action while performing the fiscal year 2001 financial statements audit.
                                                                                               (continued)



                                              29                         FY01 Semiannual Report No. 2
                                    TABLE V
                STATUS OF SELECTED KEY OPEN RECOMMENDATIONS ON
                        CORPORATION MANAGEMENT ISSUES

Budget – The Corporation should implement an automated system of reconciliation between the U.S.
Department of Health and Human Service’s Payment Management System (PMS) and the Corporation’s
general ledger system, Momentum. This was initially reported in fiscal year 1999.

   Management Response/Action – Corrective action is pending. The Corporation stated that it is
   developing an automated system for reconciling PMS and Momentum and is currently testing it. The
   Corporation performs an automated comparison of authorizations reported in the monthly PMS
   Synchronization Report with the obligated amount recorded in Momentum. The report generated
   from this comparison identifies the differences between the two systems by document number and
   fiscal year. The Corporation will continue to refine the program logic to minimize timing differences.
   The Corporation indicated that this automated system should be completely operational by December
   2001.

Costs – Refine the cost accounting module incorporated within Momentum to accumulate direct and
indirect costs related to each major program. The module should include a means to aggregate and
allocate administrative and other overhead costs among the programs. This recommendation was initially
reported in fiscal year 1999.

   Management Response/Action – Corrective action reported. The Corporation awarded a contract to
   an audit firm to review its cost allocation methodology. The firm issued its assessment on October 9,
   2001. It included six recommended improvements. The Corporation is considering implementation
   of these recommendations.

Financial Statements – Recommended improvements to the Corporation’s financial statements include:
(1) aggregating expenses by major program on the face of the statement of operations and changes in net
position; (2) issuing a supplemental schedule of program costs that would separately report grant
expenses and other costs by object class for each major program; (3) reporting the operations of the Trust
and Gift Funds separately, either on the face of, or in a note to, the financial statements; (4) combining
the Trust Fund’s financial statement disclosures, other NCSA-required reporting and other relevant
statistics into a format that will facilitate understanding and analysis of the Trust Fund’s operations and
enhance their usefulness to the Congress and other financial statement users. These recommendations
were initially reported in fiscal year 2000.
In Audit Report No. 01-33, OIG recommended that the Corporation follow the Federal Accounting
Standards Advisory Board’s reporting model for federal agencies in lieu of the Financial Accounting
Standards Board private sector guidelines that it has historically used. For additional information on this
matter, see page 1.

   Management Response/Action – Corrective action is pending. The Corporation indicated that it
   would consider the federal reporting model and would make changes to its financial statements that it
   deems relevant, cost effective and useful to the reader. OIG will assess the effectiveness of any
   format or content changes during its audit of the fiscal year 2001 financial statements.
                                                                                               (continued)




                                              30                         FY01 Semiannual Report No. 2
                                   TABLE V
               STATUS OF SELECTED KEY OPEN RECOMMENDATIONS ON
                       CORPORATION MANAGEMENT ISSUES


Procurement and Contract Management

Contracts – The Corporation should issue a written policy prohibiting cost recovery as a fixed
percentage of direct costs in its contracts since a cost-plus-percentage of cost (CPPC) contract is
prohibited in the Federal Acquisition Regulation. This recommendation was initially reported in fiscal
year 2000.

  Management Response/Action – The Corporation agreed that CPPC contracts are prohibited but
  denied using this form of contracting. The Corporation specifically declined to issue a written policy
  clarifying for Corporation contracting staff what constitutes a prohibited CPPC contract. OIG views
  this recommendation as unresolved and will review contractual provisions on direct cost
  reimbursements during follow-up audits of Corporation procurements.

Contracts – The Corporation should implement procedures to periodically review vendor codes to
ensure that only one active vendor profile is associated with each vendor code. This recommendation was
initially reported in fiscal year 2000.

  Management Response/Action – The Corporation reports that it has implemented measures to ensure
  that a single vendor code is used for each vendor. OIG will test the use of vendor codes during its
  audit of the Financial Statements for fiscal year 2001.

Health Benefits Program – The Corporation should develop and implement a system of formal policies
and procedures for oversight and monitoring of services and costs under the Health Benefit Program.
This recommendation was initially reported in fiscal year 1999.

  Management Response/Action – Unresolved.         The Corporation agrees that this recommendation
  remains open.

Outsourced Administrative Systems, Inc. – The Corporation should ensure that coordination of
benefits information for all members is entered into the Health Care Processing System and establish a
claims inventory log to track the processing of claims. This recommendation was initially reported in
fiscal year 2000.

  Management Response/Action – Unresolved.         The Corporation agrees that this recommendation
  remains open.
                                                                                            (continued)




                                             31                        FY01 Semiannual Report No. 2
                                   TABLE V
               STATUS OF SELECTED KEY OPEN RECOMMENDATIONS ON
                       CORPORATION MANAGEMENT ISSUES

National Service Trust

Education Awards – All potential education awards should be rechecked prior to entry into SPAN to
ensure the award was earned within the required time period. Any exceptions should be properly
justified and formally documented in the member’s file. (SPAN refers to the “System for Programs,
Agreements, and National Service Participants,” an Oracle-based system that the Corporation uses to
manage the National Service Trust and to maintain AmeriCorps member information.) This
recommendation was initially reported in fiscal year 2000.

  Management Response/Action – Corrective action reported. Since testing of the reported corrective
  action has not been done, OIG will assess its effectiveness during the fiscal year 2001 financial
  statements audit.

Trust Payment Vouchers– The Corporation should include, in its written policies, the time frame in
which Trust payment vouchers should be processed, and take action to enforce the time frame
established. This recommendation was initially reported in fiscal year 1999.

  Management Response/Action – Corrective action reported. OIG will assess the effectiveness of the
  corrective action while performing the fiscal year 2001 financial statements audit.

Member Data Verification – Develop and implement procedures at the Corporation level to periodically
and randomly sample and verify data related to members included in the National Service Trust database.
This recommendation was initially reported in fiscal year 2000.

  Management Response/Action – Corrective action reported. The Corporation agreed with this
  recommendation and reported that it implemented a procedure in fiscal year 2001 to randomly sample
  and verify enrollment and exit data on an annual basis. OIG will assess the new procedure’s
  effectiveness during the audit of financial statements for fiscal year 2001.




                                             32                        FY01 Semiannual Report No. 2
              FISCAL YEAR 2001 PERFORMANCE
                      INFORMATION

                                  MISSION STATEMENT
The Corporation’s Office of Inspector General is authorized by the Inspector General Act of 1978, as
amended, to –

    •   Conduct independent and objective audits and investigations.

    •   Promote organizational economy, efficiency, and effectiveness.

    •   Prevent and detect fraud, waste, and abuse.

    •   Review and make recommendations regarding existing and proposed legislation and
        regulations relating to CNCS programs and operations.

    •   Keep the Chief Executive Officer, the Corporation’s Board of Directors, and the Congress
        fully and currently informed of problems in agency programs and operations.


                                    STRATEGIC GOALS
OIG has established the following goals for its operations –

    •   Identify opportunities for increased economy and efficiency in agency operations; assist
        management by identifying, recommending, and developing appropriate management
        reforms.

    •   Protect the integrity of the Corporation’s programs, operations, and financial management by
        identifying and mitigating existing risks or emerging vulnerabilities that may result from
        changes in the Corporation’s operations, from changing legal and administrative
        requirements, or from other changes in the environment in which the Corporation operates.

    •   Carry out the intent of GPRA by (a) providing the Corporation with objective assessments of
        the integrity of the systems that it uses to compile performance information and its reliability
        and (b) changing the focus of OIG audits and other services to focus more on management
        performance and programmatic outcomes and less on compliance.

    •   Improve the quality and delivery of OIG work products.




                                                33                     FY01 Semiannual Report No. 2
                         FY01 PERFORMANCE INFORMATION

                  QUANTITATIVE AUDIT PERFORMANCE MEASURES

                                                                      FISCAL YEAR

                                                           2000           2001        2001
                                                            Actual         Goal       Actual


 Number of Reports Issued(1)                                 38            38           28

 Number of Reports Issued                                     5            14           11
 Linked to Improving CNS Management (OIG
 Strategic Goal 1)

 Number of Recommendations Linked to Goal 1                 201            __         121

 Number of Reports Issued                                    38            33          28
 Linked to Protecting the Integrity of Programs,
 Operations, and Financial Management (OIG Strategic
 Goal 2)

 Number of Recommendations Linked to Goal 2                  __            __          __
                                    …to CNCS                262                       143
                                    …to Grantees            163                       147
                                    …to Contractors          21                         0

 Number of Reports Issued Linked to Carrying Out The           1            1            2
 Intent of GPRA (OIG Strategic Goal 3)

 Number of Recommendations Linked to Goal 3                    2           __          20

 Total Number of Audit Recommendations (2)                  446            __         290

 Percent of Recommendations Accepted by CNCS                87%           95%         82%

(1)
  The increased number of audit reports in fiscal year 2000 was primarily due to the issuance of
  24 state commission pre-audit survey reports. During fiscal year 2001, OIG issued 13 similar
  pre-audit survey reports and shifted to the more time-consuming full scope audits of 13 state
  commissions of which only 2 were completed at year end.
(2)
  The number of recommendations that may appear in a report can not be predicted. The overall
  number of recommendations directed to the Corporation decreased in fiscal year 2001 due to the
  lower number reports issued than the previous fiscal year.




                                             34                      FY01 Semiannual Report No. 2
                              FY01 PERFORMANCE INFORMATION
In accordance with our fourth strategic goal, improving the quality and delivery of OIG services,
reports and other work products, OIG monitors the number of audit reports issued annually and their
timeliness, as illustrated and discussed below.


                                    AUDIT PERFORMANCE STATISTICS
                                                                                Fiscal Year

                                                               1999               2000                 2001

       Number of Audit Reports(1)                                22                 38                  28
       Number of Testimonies                                     4                  2                    3
       Number of Reports Requested by                            18                 7                    8
       Congressional Staff
       Questioned Costs (dollars in thousands)                $2,344             $8,558              $2,984
       Recommendations That Funds Be Put To
       Better Use (dollars in thousands)                    $106,000(2)          $8,558                $56
                            (3)
       Costs per Audit Hour
          OIG Staff                                             $68                $61                 $65
          Contracted Services                                   $67                $76                 $99
       Timeliness(4)                                         173 days           184 days            187 days

 (1)
   The increased number of audit reports in fiscal year 2000 was primarily due to the issuance of 24 state
   commission pre-audit survey reports. During fiscal year 2001, OIG issued 13 similar pre-audit survey reports
   and shifted to the more time-consuming full scope audits of 13 state commissions of which only 2 were
   completed at year end.
 (2)
   This amount represents an audit adjustment to reduce the Corporation’s service award liability at September 30,
   1998 that the Corporation agreed to during the fiscal year 1998 financial audit. In Public Law 106-74, the
   Departments of Veterans Affairs, Housing and Urban Development, and other independent agencies’ fiscal year
   2000 appropriations bill, Congress included language recognizing this adjustment and rescinded $80 million
   previously appropriated to the National Service Trust. In fiscal year 2001, Congress rescinded $30 million.
 (3)
   OIG staff cost per hour estimate is based on the total salary and benefit costs for audit staff divided by the
   direct hours charged to audit assignments. During fiscal years 2000 and 2001, OIG continued to operate with a
   smaller number of audit personnel than in the two preceding fiscal years. OIG relied on audit services contracts
   to perform its required tasks. Cost per hour for contracted audit services continued to increase in fiscal year
   2001 because of higher labor rates in the General Services Administration and Department of Labor master
   contracts for audit services, significantly increased requirements for technical experts, particularly in the
   Information Technology area, and more experienced personnel at the managerial levels.
 (4)
   From inception of an audit/review through issuance of the final report, which includes a 30 day response
   period. The increase realized since fiscal year 1999 was attributable to, in addition to time-consuming full
   scope audits of state commissions, detailed and technical reviews that OIG conducted on the Corporation’s
   grant application review process, financial management and reporting, performance measures, and computer
   systems.




                                                    35                       FY01 Semiannual Report No. 2
                                  FY01 PERFORMANCE INFORMATION

               INVESTIGATIONS PERFORMANCE INFORMATION
The basic mission of the OIG investigative element is to lawfully determine as many of the facts as possible
surrounding a given incident. The incident under review may include allegations of criminal activity,
allegations of non-criminal activity, or allegations that include both criminal activity and non-criminal
activity. The basic mission of the investigative element remains unchanged regardless of the nature of the
incident: Determine as many facts as possible surrounding a given incident. How an allegation is
developed, i.e., reactively or pro-actively, has no impact on the basic mission.

What occurs after the initial receipt of a complaint, allegation, or information that results in the development
of a complaint or allegation, varies, depending primarily upon whether the matter is criminal or non-
criminal, and if criminal, whether or not it is accepted by the Department of Justice for prosecution.

All matters involving evidence of federal criminal violations are referred to the Department of Justice for a
prosecutive decision. This does not mean that all allegations of federal criminal violations are referred; only
those with evidence of a federal criminal violation are referred, with some exceptions. For example, all
allegations of significant fraud and all allegations against certain senior government officials are referred to
the Department of Justice without regard to the amount of evidence available at the time the allegations are
received. Many of the criminal matters we investigate involving Corporation programs and operations are
declined for prosecution by the Department of Justice because of the low dollar amounts involved. We have
had no declinations of a criminal matter because of our inability to sufficiently develop evidence of criminal
misconduct. Some of our referrals that are declined by the criminal section of the Department of Justice are
accepted by the civil section for civil enforcement.

Those matters that are determined to be non-criminal and those matters that have been declined for
prosecution or civil enforcement by the Department of Justice are often referred to Corporation management
for administrative action. This administrative action might involve suspension or even removal of an
employee. Administrative action could also involve a redesign or refinement of a process or system that
was identified by our efforts as one that could be improved. When OIG refers such matters to management,
we usually request that management provide us a brief narrative of what, if any, administrative action was
taken as a result of the referral to them.

One other area that deserves mention involves those matters (criminal and non-criminal) that OIG finds did
not occur, did not occur as alleged, or were not within our purview. While some of these matters are as
important as a founded criminal investigation (and as such are identified and documented separately), the
majority are minor and are combined in one quarterly file, without opening a separate investigative action.
Regardless of the severity however, each matter requires some degree of preliminary inquiry. The following
table presents statistics on OIG’s investigative workload.




                                                 36                            FY01 Semiannual Report No. 2
                                       FY01 PERFORMANCE INFORMATION

                                INVESTIGATIONS PERFORMANCE STATISTICS



                                                                        Fiscal Year

                                                     1997        1998       1999          2000         2001

           Investigative Actions Opened                 31        41          46            51          951


           Investigative Actions                                              29            47          95
                                                        46        29
           Resolved and Closed


           Average Monthly Caseload                     19        17          25            30          35


           Investigative Matters
           Resolved Without Opening a                   69        33          48            37          29
           Separate Investigative Action


           Referrals for Prosecution                    4          7          12            14          16

           Administrative or
           Management Action Taken                      3          6          10            4            82




1
    Forty-five of the 95 investigative actions opened during fiscal year 2001 were opened as a direct result of a
proactive OIG review of Corporation employees’ use of the government travel charge card. The 45 actions
were opened to document the investigation of suspected employee abuse of the government travel cards,
namely using the cards for personal benefit, in violation of Corporation policy, federal regulations, and the
Standards of Conduct.
2
 Administrative or management action is pending in 30 investigative actions involving 32 Corporation
employees.




                                                   37                              FY01 Semiannual Report No. 2
                                FY01 PERFORMANCE INFORMATION

                                      OIG Obligations
                                                 (1)
                                Fiscal Years 2001 and 2000


                                                     2001                           2000

Audits
   CNCS Financial Management                    $ 572,000                      $ 945,742
             (1)
      Grants                                        2,164,560                      1,304,297

      Procurement                                           -                       348,513

      Information Technology                         382,548                        124,730

      Audit Administration                           291,680                        207,541

Investigations                                       546,080                        385,624
                     (2)
Administration                                      1,261,454                       612,797


         Total                                  $ 5,218,322                    $ 3,929,244


(1)   The FY 2000 supplemental appropriation of $1 million received on July 13, 2000,
      established under section 178 of the National and Community Service Act of 1990, was
      carried over into FY 2001 in support of OIG audits of state commissions. This amount
      includes the total obligations of $998,719 for state commission audits under the
      supplemental appropriation.
(2)   The increase in FY 2001 administration costs is primarily due to the relocation of the OIG
      suite and the first full year of the Deputy Inspectors General salaries as an administration
      expense.
                                                      FY 2001                        FY 2000

      Administrative Salaries                   $     805,711                  $     540,138
      Rent for July-September                          62,139                              -
      Office Space Construction                        67,299                              -
      Furniture                                       129,646                          2,626
      OIG Network/Accreditation                        38,740                              -
      LAN and Computer Equipment                       65,056                         28,348
      Other Administrative Cost                        92,864                         41,684
             Total                              $ 1,261,454                    $     612,797




                                              38                            FY01 Semiannual Report No. 2
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

OFFICE OF THE INSPECTOR GENERAL



    HOTLINE
               Corporation Employees!
      Concerned Citizens!             Grantee Employees!

AmeriCorps Members!                     Senior Corps Volunteers!




  Report suspected fraud, waste or abuse.
                ♦   All information is confidential.

                ♦   You may remain anonymous.


           1-800-452-8210
                          Or write:

                    OIG HOTLINE
    Corporation for National and Community Service
        1201 New York Avenue N.W. Suite 830
                Washington, D.C. 20525
